                                                                                       \~ )

s. DEPARTMENT OF COMMERCE



                            Office     of   Inspector General
                                                                                       r~~
                                                                                         ~Of




                   N A        TI            AL INSTITUTE



STANDARDS AND TECHNOLOGY

        Manufacturing Extension Partnership
         Program A wards Process Promotes
                                            Merit-Based Decisions
                                                           CFDA No.                  11. 611


            Audit Report No. DEN- 10959-                              0001   March      1999




                                       PU 8 LI C RELEASE


                                   Office of Audits, Denver Regional Office
                                                      ~. ~        -.-

                                            c~'            UNITED STATES DEPARTMENT OF COMMERCE

                                            . Iff          The Inspector General
                                                           Washington. D. c.   20230


  March 31 ,   1999


  MEMORANDUM FOR:                Raymond G. Kammer
                                 Director
                                 National Institute of Standards and Technology


  FROM:                         Johmrie E. Frazier
                                Acting Inspector Gen
 SUBJECT:
                                                       tfl
                                Manufacturing Extension Partnership Program
                                Awards Process Promotes Merit-Based Decisions
                                CFDA No.    11. 611
                                Final Audit Report No. DEN- I0959- 0001
 The Office of Inspector General has completed a performance audit of the National Institute of
 Standards and Technology s solicitation , review
                                                  , and selection process for its discretionary
 cooperative agreements under the Manufacturing Extension Partnership Program
 No. 11.611 in the   Catalog of Federal Domestic Assistance for fiscal years 1996 and, classified as
 final report is attached. The executive summary of the report is on page i and           1997. The
 for NIST's action are on page 14.                                                recommendations

NIST agreed with the findings and recommendations in our draft audit report and will implement
our recommendations in future award competitions. NIST'
                                                        s response is summarized in the
executive summary, and we have attached the complete response as an appendix to the report.

Please provide your audit action plan addressing the recommendations within 60 calendar days
in accordance with Department Administrative Order 213-
                                                            5. The plan should be in the format
specified in Exhibit 7 of the DAO. Should you have any questions regarding the
audit action plans , please contact William R. Suhre                               preparation of
                                                     , Regional Inspector General for Audits , at
(303) 312- 7650. We appreciate the cooperation extended by your staff during our audit.

Attachment

cc (wiatt):     Kevin Carr , Director, Manufacturing Extension Partnership
                Marilyn Khan , NIST Audit Liaison
                Linda J. Bilmes , Acting Chief Financial Officer and Assistant
                 Secretary for Administration
                Susan Sutherland , Acting Director , Office of Executive Budgeting and
                 Assistance Management
 u.s. Department of Commerce                                                             Report No. DEN- 1O959- 0001
 Office of Inspector General                                                                                      March     /999


                                       TABLE OF CONTENTS

 EXECUTIVE SUMMARY
                                  ...................................................... i
 INTRODUCTION .............................................................

 PURPOSEANDSCOPE........................................................
 FINDINGSANDRECOMMENDATIONS .........................................

        NIST Has Adequately Addressed
        Prior Audit Report Findings ...............................................

II.     MEPUsedMerit- BasedReviewCriteria......................................

III.    Solicitation Deficiencies Were Mitigated
        bySupplementaIMailing..................................................
IV.     MEP Implemented a Merit-Based Review Process. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

        MEPSelectionsWereProper..............................................
VI.     Award Renewal Procedures Are Adequate ...................................

VII.    Award Renewals Were Improperly Categorized. . . .
                                                                        . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
VIII.   Recommendations ......................................................

                NIST's Response to the Draft Audit Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

APPENDIX I        - NIST Procedures       for Solicitation , Review , and Selection of Awards

APPENDIX II - NIST's Complete Response to the Draft Audit Report
  u.s. Department of Commerce
                                                                           Report No. DEN- I0959- 0001
  Office of Inspector General
                                                                                             March 1999


                                     EXECUTIVE         SUMMARY
 The Office ofInspector General conducted an audit of fiscal year 1996 and 1997 criteria
 procedures , and practices for soliciting, reviewing, and selecting applications for financial
 assistance under the National Institute of Standards and Technology s (NIST) Manufacturing
 Extension Partnership Program (MEP), classified as No. 11.611 in the
                                                                           Catalog of Federal
 Domestic Assistance  (CFDA). The audit was conducted as part of a Department-wide review of
 Commerce s discretionary financial assistance programs initiated at the request of the Chairman
 of the Senate Committee on Commerce , Science , and Transportation.

 Discretionary financial assistance programs are those programs for which federal agencies have
 the authority to independently determine the recipients and funding levels of awards. These
 programs involve a significant portion of the Commerce Department' s budget and operations
 approximately $1 billion annually.

 The MEP program provides financial assistance to a nationwide network of75 not-
                                                                                     for-profit
 centers to provide business assistance to small and medium-sized manufacturers. There are
MEP- funded centers in all 50 states and Puerto Rico. The centers are linked together through
NIST , making it possible for even the smallest manufacturers to have access to more than
   000 manufacturing and business specialists. In fiscal year 1997 , MEP processed
55 cooperative agreement actions , totaling almost $79. 5 million. All fiscal year
                                                                                   1997 award
actions were renewals of prior year awards. Since NIST did not conduct a competition for new
awards in fiscal year 1997 , we focused our attention on (I) the fiscal year 1996 competitive
criteria, procedures and practices , including follow-up on NIST' s actions in implementing
previous audit report recommendations , and (2) NIST' s procedures for granting renewal awards
for existing centers in fiscal year 1997.

We examined NIST's criteria , procedures and practices for the solicitation
                                                                             , review, and selection
ofMEP awards and found that they were generally adequate to support merit-
                                                                                  based decisions
and , with the exception of minor deficiencies found in the solicitation notice
                                                                                , met the
Department' s current minimum requirements. At the same time , we identified opportunities for
improving the program s award procedures and practices. Specifically, our audit disclosed that
NIST:

       Has taken appropriate steps to improve its MEP center selection process
                                                                               , as
       recommended in a prior audit report (see page 6).

       Used merit- based criteria , which were consistent with the objectives of the MEP
       program , for funding decisions (see page 7).

       Failed , in its 1996 solicitation notice , to meet minimum departmental
       requirements for identification of the intended funding instrument and discussion
       of the proposal review criteria and process. However, NIST mitigated this failure
       by mailing supplemental infonnation packages to 278 interested parties
       (see page 8).


                                                 -1-
 u.s. Department of Commerce
                                                                          Report No. DEN- I0959- 0001
 Office of Inspector General
                                                                                            March 1999

         Followed established procedures in reviewing applications , as detailed in its
         Source Selection Plan (see page 9).

         Followed established procedures in selecting applicants to receive MEP funding
         (see page 12).

        Followed adequate procedures and practices for "renewing" prior awards (see
        page 12).

 We noted an additional minor deficiency in NIST' s award process. NIST recorded several 1997
 MEP award renewals under an incorrect CFDA code number. As a result
                                                                       , the Department'
 Office of Executive Assistance Management received inaccurate data for tracking awards. The
 Office of General Counsel had also noted NIST' s incorrect reporting and advised NIST to report
 all future MEP award actions under the appropriate code number (see page 13).

We recommend that the Director, MEP Program , ensure that:

        Any future MEP center solicitation notices meet the minimum requirements
        established by departmental guidance.

        MEP invites participants from outside NIST and the Department to serve as
        proposal reviewers in order to enhance the objectivity of the selection process
        for any future MEP center competition.

       Award renewals are correctly reported under the appropriate CFDA number.

Our recommendations appear on page 14.

In its response to the draft audit report , NIST agreed with the findings and recommendations.
NIST will ensure that any future MEP center solicitations comply with the minimum
requirements , will involve outside proposal reviewers , and will report the proper CFDA category
number on all future MEP award actions. In its response , NIST also provided additional
information to explain the noted deficiencies.




                                               -11-
  u.s. Department of Commerce
                                                                           Report No. DEN- 1O959- 0001
  Office of Inspector General
                                                                                           March    1999

                                         INTRODUCTION
  The National Institute of Standards and Technology s (NIST) primary mission is to promote U.
. economic growth by working with industry to develop and apply technology, measurements
  standards. To accomplish a portion of its mission, NIST administers the Manufacturing            , and
 Extension Partnership (MEP) program , described in the   Catalog of Federal Domestic Assistance
 (CFDA) as No. 11.611. The program s objectives , as stated in the CFDA
                                                                            , are "to establish
 maintain , and support manufacturing extension centers and services , the functions of which are
 to accelerate the usage of appropriate manufacturing technology by smaller u.S.
                                                                                    - based
 manufacturing firms , and partner with the States in developing such technical assistance
 programs and services for their manufacturing base.

 The Omnibus Trade and Competitiveness Act of 1988 directed the Secretary of Commerce to
 establish a network of regional centers for the transfer of manufacturing technology to enhance
 productivity and technological performance in the United States.
                                                                     This network of regional
  centers has evolved into the MEP program. Under the MEP program
                                                                        , NIST provides financial
  assistance , through cooperative agreements , to a nationwide network of75 not-
                                                                                  for-profit centers
  established to provide business assistance to small and medium-sized manufacturers.    There are
 MEP- funded centers in all 50 states and Puerto Rico. The centers are linked together through
 NIST, making it possible for even the smallest manufacturers to have access to more than
    000 manufacturing and business specialists. In fiscal year 1997 , NIST processed 55 MEP
 cooperative agreement award actions , totaling almost $79.5 million. All fiscal year 1997 award
 actions were renewals of prior year awards. NIST considers the nationwide MEP center network
 to be complete; therefore , no future MEP center competitions are anticipated.

Discretionary financial assistance programs are those for which federal agency officials have the
authority to decide (1) which eligible applicants will receive awards
                                                                      , and (2) how much will be
awarded. Technically, all Commerce financial assistance programs are discretionary, rather than
entitlement programs. However, the authorizing legislation for the programs provides for
varying degrees of discretion in making awards. The use of competitive selection procedures is
generally agreed to be the most effective method of ensuring that financial assistance awards are
made on the basis of merit. One of the primary purposes of the Federal Grant and Cooperative
Agreement Act (31 U. C. 96301 et seq) is to encourage competition in the award of federal
financial assistance to the maximum extent practicable in order to fairly and objectively identify
and fund, based on merit, the best possible projects proposed by applicants
                                                                             , and thereby more
effectively achieve program objectives.

The Office of Management and Budget (OMB) has issued guidelines on administering
competition-based financial assistance programs for use by federal agencies.
                                                                                An interagency
study group, convened in 1979 by OMB to examine competition in financial assistance
programs , determined that financial assistance award processes , to ensure effective competition
should include three basic elements. These elements , which were discussed in OMB'
                                                                                        s June 1980
report Managing Federal Assistance in the 1980's and are still applicable
                                                                            , include:
u.s. Department of Commerce
                                                                         Report No. DEN- I0959- 0001
Office of Inspector General
                                                                                           March 1999

        Widespread solicitation of eligible applicants and disclosure of essential
        application and program information in written solicitations;

       Independent application reviews that consistently apply written program review
       criteria; and

       Written justifications for award decisions that deviate nom recommendations
       made by application reviewers.

Also , OMB has issued the following circulars which set forth the policies and procedures to be
followed in administering federal financial assistance programs:
       OMB Circular A- Federal Domestic Program Information
                                                                        implements the
       Federal Program Information Act (p. L. 95-220) requiring agencies to
       systematically and periodically collect and distribute current information to the
       public on federal domestic assistance programs , which is accomplished through
       the semiannual publication ofthe
                                         Catalog of Federal Domestic Assistance.

      OMB Circular A- I 02 Grants and Cooperative Agreements with State and Local
      Governments requires agencies to provide the public with advance notice in the
      Federal Register or by other appropriate means , of their intended funding
      priorities for discretionary assistance programs unless such priorities are
      established by federal statute. Under A- I02 , when time permits
                                                                       , an agency must
      provide the public with an opportunity to comment on funding priorities. Finally,
         I02 requires all grant awards over $25 000 to be reviewed for consistency with
      agency priorities by a policy level official.

      OMB Circular A- I 10 Uniform Administrative Requirements for Grants
                                                                                  and
      Cooperative Agreements with Institutions of Higher Education
                                                                       , Hospitals, and
      Other Non-Profit Organizations requires agencies to provide the public with
      advance notice of their intended funding priorities for discretionary assistance
      programs unless such priorities are established by federal statute.

     OMB Circular A- 123 Management Accountability and Control
                                                                        implements the
     Federal Managers Financial Integrity Act (P. L. 97-255), requiring agencies to
     establish management controls for federal programs and operations
                                                                          , including -
     financial assistance programs , that provide reasonable assurance that activities are
     effectively and efficiently managed to achieve agency goals.
 ...   ---            --'"     - -- - - - - - --- - - - --- - - - - - ---
             - --- - -- --..........
                               -                                        - -- - - - ----
                                                                          ..         --                       --                    - -          -- -



u.s. Department of Commerce                                                                                                     Report No. DEN- JO959- 0001
Office of Inspector General                                                                                                                      March 1999



Commerce has relied on these guidelines in developing and issuing policies and procedures for
its discretionary funding programs. Department Administrative Order (DAD) 203-
Department of Commerce Grants Administration requires that (1) all Commerce discretionary
funding awards be made on the basis of competitive reviews unless a special waiver is obtained,
(2) competitive review processes meet minimum standards outlined in the DAD, and (3) all
Commerce agencies publish, at least annually, a notice in the  Federal Register    announcing the
availability of funding, soliciting award applications, and specifying the criteria and process to
be used in reviewing and selecting applications for funding.

In addition to the guidelines established by OMB and the Department                                                                                 for     MEP
                                                                    , specific criteria
awards were set forth in 15 D.      , Section 278k(c)(4) - (5).

The following chart depicts the basic process and controls for the solicitation, review, and
selection of financial assistance awards as set forth in DAD 203-26. The processes we reviewed
during our audit are color coded for this chart and the NIST process chart located in Appendix



          Department of Commerce Financial Assistance                                             Awards Process




 c3           " B . ..                                                                                  ~R-
                                                                                                       - UniIed

                                                                                                        ~Audit-
                                                                                                                           ChocO




                      SOLICITATION

                      Pubic-
                      -ie"
                                              -- R- .
                                             REVIEW


                                              PanoI(s)
                                                                          sELeCTION

                                                                            0u0ntiIaW0 Scooes
                                             . EY8IuationCrilorio '- PUbicPoliCy~
                                                                     Rocomrnond-
                                                                                                                  PREAWARD SCREENING


                                                                                                                     RocoMoblo
                                                                                                                                          SIGNED BY GRANT
                                                                                                                                          OFFICER
                      F_R8gioIor.            . Numeric                                                            . Susponsions &         OR DESIGNATED
 .i:                                                                                                               A_P_1'!opooty
                      Comrnoft:e Bu......
                      00"'.
                                                         "."..".-...u". DocisIon Fully Justitied and                                      OFFICIAL

                      5es1
  u.s. Department of Commerce                                                  Report No. DEN- I0959-   0001
  Office of Inspector General                                                                   March   1999

                                                           PURPOSE AND SCOPE
 This audit was conducted as part of a comprehensive review of the Department of Commerce
 discretionary funding programs initiated at the request of the Chairman of the Senate Committee
 on Commerce , Science , and Transportation. The Chairman requested that the Inspectors General
 of the Departments of Commerce and Transportation review the discretionary funding programs
 of their respective agencies to assess the manner in which discretionary funding decisions are
 made. More specifically, the Chairman requested that each IG review and report on the criteria
 developed , either statutorily or administratively, to guide agency officials in making
 discretionary spending decisions , and on the extent to which the criteria are appropriateiy
 applied.

  We are conducting our Department-wide review in two phases: a survey phase (completed), and .
  an individual program audit phase (ongoing). During the survey phase , we identified and
  examined the body of laws , regulations , and other guidance applicable to the administration of
 federal financial assistance programs. We also examined the authorizing legislation for each
 Commerce financial assistance program and classified each program as either a " full discretion
 program or a " limited discretion " program , based on the extent to which the legislation limits the
 agency s authority to independently determine the recipients and funding levels ofthe awards
 made under the program. Finally, we examined fiscal year 1997 appropriations legislation to
 identify any legislatively mandated projects.

During the second phase of our review , we are conducting individual audits ofthe award
solicitation , review , and selection processes of each program we have classified as a "
                                                                                          full
discretion " program , including the NIST MEP program. We are evaluating the adequacy of each
program s established award criteria and procedures for evaluating individual applications.
                                                                                               For
those programs with procedures deemed to be adequate , we are ascertaining whether they were
followed in making awards in fiscal year 1997. For those programs with procedures considered
to be inadequate or lacking, we are reviewing how fiscal year 1997 award decisions were made.
Finally, we are examining the legislatively mandated projects identified
                                                                        for  each progranl and
determining their significance and impact on fiscal year 1997 award decisions. We will issue
individual reports , with any appropriate recommendations on each program
                                                                            , followed by a
capping report summarizing the results ofthe individual audits and providing recommendations
for the Department and/or its bureaus. .

On  July    , 1998 , the Acting Inspector General and the Chief Financial Officer and Assistant
-Secretary for Administration testified before the Senate Commerce , Science , and Transportation
Committee on the Department' sdiscretionary funding programs. The Acting IG reported on the
status of the survey phase ofthe OIG' s review , and discussed some ofthe preliminary
observations from the individual program audits.

This performance audit covered all award renewals processed by NIST during fiscal year 1997
and all new awards issued in fiscal year 1996 under the MEP program. There were no new
awards issued in 1997. There were no legislatively mandated awards under this
                                                                              program in fiscal
years 1996 or 1997.
                                                     --




 u.s. Department of Commerce
                                                                            Report No. DEN- 1O959- 0001
 Office of Inspector General                                                                March   /999

 To respond to the Chairman s request , we:

         Reviewed the authorizing legislation and information summarized in the CFDA to
         identify criteria for funding decisions.

        Reviewed Department and NIST policies and procedures for soliciting, reviewing,
        and selecting recipients for awards (see Appendix I for a flowchart ofthe
        process). We reviewed NIST' s solicitation , review , and selection process for
        MEP awards , and assessed whether it was in accordance with DAO 203-
        Department of Commerce Grants Administration and Office of Federal
        Assistance Financial Assistance Notice No. 17 Department of Commerce
        Guidelines for the Preparation of Federal Register Notices Announcing the
        Availability of Financial Assistance Funds
                                                          Requests for Applications.

        Compared NIST's practices for the fiscal year 1996 and 1997 award actions with
        the prescribed procedures to determine if the processes contained adequate
        intemal controls to provide for competitive , merit-based awards.

        Interviewed MEP program office officials concerning NIST's solicitation
                                                                                , review
        and selection procedures.

       Reviewed a prior OIG audit report on MEP award selection practices.

We did not rely on computer-based data supplied by NIST and the Department'
                                                                               s Office of
Executive Assistance Management (OEAM) and cited in the report , as a basis for our audit
findings and recommendations. Consequently, we did not conduct tests of either the reliability
ofthe data or the controls over the computer-based system that produced the data.

We conducted our audit fieldwork in August 1998 at NIST's MEP Program Office and Grants
Office , in Gaithersburg, Maryland. We conducted the audit in accordance with generally
accepted government auditing standards and under the authority of the Inspector General Act of
1978 , as amended , and Department Organization Order 10- , dated May 22
                                                                           , 1980 , as amended.
  US. Department of Commerce                                                Report No. DEN- /O959-   000/
 Office of Inspector General                                                                 March   /999

                               FINDINGS AND RECOMMENDATIONS

 We found that NIST established merit- based criteria and processes for soliciting and reviewing
 MEP candidates and selecting MEP awardees. Also , NIST' s procedures and practices for the
 solicitation , review , and selection ofMEP award recipients generally complied with applicable
 statutory, departmental , and NIST requirements. Although we found that NIST's solicitation
 notice for the 1996 competition , as published in the    Federal Register failed to meet minimum
 departmental requirements , NIST supplemented the information in the notice through a widely-
 distributed applicant information package. Additionally, we found that NIST has taken
 appropriate steps to improve its MEP center selection process , as recommended in a prior OIG
 audit report , and , as a result , now has adequate internal control procedures over the process.
 also found that NIST has adequate procedures for renewals of awards and that they were properly
 followed in renewing awards in fiscal year 1997.

 However, we did find room for improvement in the MEP award process. Whenever future
 competitions occur, the independence and objectivity could be enhanced by inviting reviewers
 fTom outside NIST and the Department to participate in the review process. We also found a
minor deficiency in the award processing. NIST recorded several 1997 MEP award renewals
under an incorrect CFDA code number. As a result , theDepartment' s OEAM received
inaccurate data for inclusion in its database system used to report on and track awards , as it is
required to do in accordance with OMB Circular A- 89. The Office of General Counsel had also
noted NIST's incorrect reporting and advised it to report all future MEP award actions under the
appropriate code number.

        NIST Has Adequately Addressed
        Prior Audit Report Findings

In a 1994 audit report , we stated that NIST's selection process for MEP awards was vulnerable to
abuse. 1 That audit found that the selection process did not require written procedures to be
established before the process began. . As a result , NIST did not document several important
aspects of the selection process , including the specific roles of selection panel members , the steps
followed during proposal screenings and applicant site visits , and the bases for determining cut-
off points for rejecting unsuccessful proposals or forwarding other proposals to the next level of
screening. NIST also had failed to document the results of each step in the review process. We
recommended that NIST establish written procedures to supplement those in the program
regulation , and document the results of each step in the process. NIST concurred with_our
recommendations.

During our audit ofNIST's fiscal year 1996 MEP center selection process , we reviewed NIST's
actions in implementing our earlier recommendations. We found that NIST had implemented
corrective procedures for both its fiscal year 1995 and 1996 competitions. To address our
concern that written procedures were not established before the selection process began , NIST


        Management and Funding Problems Confront the MEP Program DEN- 5434- 0001 , September 1994.
  u.s. Department of Commerce                                                      Report No. DEN- IO959-
  Office of Inspector General                                                                                0001
                                                                                                     March   /999

 prepared   Source Selection Plans to provide guidance for conducting the 1995 and 1996 MEP
 center competitions. The plans detail the roles of the various participants in the selection
 process , training requirements for review panel members , and specific steps that reviewers are to
 follow during each phase of the review and selection processes.
                                                                   The plans adequately addressed
. our recommendations and were properly implemented.

 To address our finding that NIST did not document the results of each step in the review process
 NIST prepared notebooks for both the 1995 and 1996 MEP center competitions. The notebooks
 contain all pertinent documentation for the solicitation , review , and selection processes. Each
 notebook is divided into sections chronicling the results of a specific phase in the competition.
 Within each section , NIST provides documentation of the specific steps taken during each phase
 and the bases for its decisions and recommendations. Through this effort , NIST has adequately
 addressed our concerns regarding documentation of the results of each step in the MEP center
 competition review process.

NIST awarded 36 MEP center cooperative agreements - 18 each in 1995 and 1996 - after
implementing the recommendations in our prior audit report. . Consequently, 39 ofthe 75 current
MEP centers were selected prior to NIST's corrective actions and , as a result
                                                                               , we cannot be
assured that all current centers were awarded based on a documented , merit-
                                                                             based process.
However, since each center is subjected to annual evaluations by MEP program personnel as a
requirement for continued funding (see Section VI), awards to poorly performing centers have
been terminated.

II.          MEP Used Merit- Based Review Criteria

The MEP review panels used merit-based criteria, which were consistent with federal statute and
the objectives of the program , to evaluate the applications. 15 V.    , Section 278k(c)(4) sets
broad selection criteria for MEP awards. NIST implemented these criteria , including specific
proposal review criteria , in the MEP Program Rule , which is set out in 15 CFR
                                                                                 , Part 290.

The proposal review and selection criteria for MEP centers are listed in Part 290.
                                                                                   6.          Each of the
four review categories receives equal weight and are as follows:

(1)         Identification of Target Firms in Proposed Region.
                                                                 Does the proposal define an
            appropriate service region with a large enough population of target firms of small- and
            medium-sized manufacturers which the applicant understands and can serve, and which is
            not presently served by an existing center? Factors to consider include:

            (a)        Demonstrated understanding of the region s manufacturing base , including
                       business size , industry types , product mix , and technology requirements.

            (b)        Demonstrated need for a center in the region , based on physical size
                       concentration of industry, and economic significance of the region
                       manufacturing base? Geographical diversity ofMEP centers will be a factor in
                       evaluating proposals. A proposal for a new center near an existing center may be

                                                                 - 7-
   u.s. Department of Commerce                                                     Report No. DEN- I0959- 0001
   Office of Inspector General
                                                                                                     March 1999

                          considered only if the proposal is unusually strong and the number of
                          manufacturers and their technology needs justify a new center.

   (2)         Technology Resources.     Does the proposal assure strength in technical personnel and
               programmatic resources , full- time staff, facilities , equipment , and linkages to external
               sources of technology to develop and transfer technologies related to NIST research
               results and expertise in relevant technical areas?

   (3)        Technology Delivery Mechanisms.
                                                 Does the proposal clearly and sharply define an
              effective methodology for delivering advanced manufacturing technology to target firms?
              Factors to consider include:

              (a)        Linkages or partnerships with third parties that will amplify the center s delivery
                         of technology in the service region.

              (b)        Demonstrated effective strategy for amplifying the center' s technology delivery
                         approaches to achieve the proposed objectives , as described in Part 290. 3(e).

  (4)        Management and Financial Plan.
                                               Does the proposal define a management structure and
              assure management personnel to carry out development and operation of an effective
             center? Factors to consider include:

             (a)        Completeness and appropriateness of the organizational structure and its focus on
                        the mission of the center, including assurance of a full- time top management
                        structure.

             (b)        Effectiveness of the planned methodology of program management.

             (c)        Effectiveness of the planned continuous internal evaluation of center activities.

             (d)       Demonstrated stability and duration of the funding commitments; as well as the
                       percentage of operating and capital costs guaranteed by the applicant
                       identification of matching fund sources; and evidence ofthe center s ability to
                       become self-sustaining after six years.

            (e)        Suitability and focus ofthe first- year budget and six- year budget outIine-

Based on our review , we concluded that the MEP criteria for evaluating applicants are designed
to result in merit- based awards.

III.        Solicitation Deficiencies Were Mitigated
            by Supplemental Mailing

NIST published a "Notice of Availability of Funds " for the fiscal year 1996 MEP center
competition in the          Federal Register Volume 61 ,   Number 88 , dated May 6 , 1996. The notice
                                                 ,"     ,"


      u.s. Department of Commerce                                                        Report No. DEN- I0959- 0001
      Office of Inspector General                                                                          March 1999

   established a July 8 , 1996 , deadline for submission of proposals, and stated that recipients would
  be selected during September 1996. Upon examining the notice to determine whether it
  complied with the requirements established by DAO 203- , Section 4. 02b , and Financial
. Assistance Notice No. 17, Section . , we found that it failed to do so. Specifically, the                       Federal
  Register  notice failed to state the type of funding instrument planned (contract                          , or
  cooperative agreement), and did not describe either the proposal review criteria or the selection  , grant
  procedures to be used. However, NIST mitigated the deficiencies in the                    Federal Register       notice
  by distributing a supplemental information package to all 278 interested parties on MEP'
  mailing list.

 The DAO and the Financial Assistance Notice both require solicitation notices for Department of
 Commerce discretionary funding programs to state the type of funding instrument planned. The
 Financial Assistance Notice further provides If cooperative agreement applications are being
 solicited, the notice should clearly indicate what type and the extent of substantial involvement
 the operating unit intends to have in the projects. " Although all MEP center awards were
 established using cooperative agreements , the 1996    Federal Register notice did not state that
 cooperative agreements were planned or discuss the level ofNIST involvement anticipated in the
 centers.

The     Federal Register           notice also failed to specify the proposal review criteria and award
selection procedures , as required by the DAO and the Financial Assistance Notice. When asked
about NIST' s failure to state the review criteria and selection procedures , an MEP program
official pointed out that the MEP Program Rule , 15 CFR, Part 290 , clearly spells out the criteria
and procedures. However, departmental guidance is clear that the solicitation notice must
include the review criteria and a statement of the selection process. In fact
                                                                                                 , Financial Assistance
Notice No. 17 , Section . 03b.                                 The review criteria that will be used in evaluating and
                                                 (l), states
selecting applications for discretionary funding consideration
                                                                                    must be delineated. (Emphasis
added. ) We believe that , at a minimum , NIST' s MEP solicitation notice should have referred
potential applicants to the specific sections in the program rule where the review criteria and
selection process are described.
NIST provided several documents to the 278 interested parties on MEP' s mailing list , including
the Proposal Guidelines and Information Package which stated that MEP center awards would
involve cooperative agreements , contained a narrative description of the selection process
                                                                                             , and
provided details on each of the review criteria. In addition, interested parties also received copies
ofthe MEP Program Rule , which described the process and criteria. Although we acknowledge
that the information was available to individuals who requested it, we are still troubled by the
fact that the solicitation notice failed to meet the Department' s minimum requirements. Our
concern proceeds fTom the possibility that parties who read the notice , but were not included on
MEP' s mailing list , did not receive complete information on the MEP selection process.

IV.        MEP Implemented a Merit- Based Review Process

The MEP center review process is described in Part 290. 7 of the MEP Program Rule. The
process involves the following four phases.
   u.s. Department of Commerce
                                                                                            Report No. DEN- /O959-   000/
   Office of Inspector General
                                                                                                             March   /999

   (1)    Proposal Qualification.                    NIST reviews each proposal to determine whether the proposer is a
          qualified organization (i. , non-profit) and the proposal complies with the published format
          and content requirements. Qualification guidelines are listed in Part 290.

  (2)     Proposal Review and Selection of Finalists.
                                                        The Director ofNIST appoints evaluation
          panels to score and rank proposals , based on the criteria listed in Part 290. 6. Subpanel
          recommendations are combined to develop a list of finalists.

  (3)    Finalist Site Visits. NIST representatives will visit each finalist organization, allowing the
         finalists an opportunity to provide oral presentations and to answer any additional questions
         from the MEP staff. Scores are assigned using the review criteria listed in Part 290.
                                                                                                6 and a
         list of recommended recipients is sent to the selecting official.

 (4)     Award Determination.    The selecting official , either the NIST Director or his designate
         makes the final award selections based upon the rank order of applicants , the need to assure
         appropriate regional distribution , and the availability of funds.

 NIST had $20 million available for new awards under the fiscal year 1996 MEP center
 competition. In response to its
                                  Federal Register  notice , NIST received 28 proposals , requesting
 about $29. 2 million in federal funding. DAO 203- 26 requires that each proposal submitted in
 response to a competitive notice should be treated fairly and receive an independent
                                                                                      , objective
 review , based on the published selection criteria. The DAO also requires that each proposal be
 reviewed by one or more review panels , each composed of at least three reviewers who need not
 be employees of the agency.

As mentioned in Section I (page 6), NIST developed
                                                        Source Selection Plans for its 1995 and
1996 MEP competitions to plan and document the process. The Plans detail the roles of the
various participants in the process , training requirements for review panel members
                                                                                       , and specific
steps that reviewers are to follow during each phase of the review and selection processes.

NIST established three review subpanels to perform the first two phases of the review process --
proposal qualification , and proposal review and selection of finalists. Two
                                                                                 of the subpanels were
 each assigned 9 proposals for review , while the third subpanel was assigned 10. Each subpanel
 consisted of a chairperson and three evaluators. Subpanel members were MEP program staff
 appointed by the chairperson of the Source Selection Evaluation Board (SSEB) (see below).
subpanels operated independently of each other, in accordance with procedures established inThe    the
Source Selection Plan.    The plan required subpanels to perform qualification reviews on each
proposal and then evaluate only those that met the minimum requirements. None
                                                                                        of the 28
proposals were rejected in the proposal qualification phase , and all moved to the second
phase-proposal review and selection of finalists. The flowchart in Appendix I , page
                                                                                            1 of 3
illustrates the subpanels ' activities in the first two phases of the MEP center review process.

The three subpanels reviewed their assigned proposals using review criteria contained in Part
290. 6 ofthe MEP Program Rule. After evaluating and scoring each proposal
                                                                             , the subpanels
independently established threshold scores. The thresholds were set so that proposals scoring

                                                                   10-
  u.s. Department of Commerce
                                                                            Report No. DEN- 1O959- 0001
  Office of Inspector General
                                                                                             March 1999

  above each threshold had concerns or questions that could be resolved through more detailed
  review and site visit interviews , while proposals scoring below the threshold contained serious
  flaws that could not be resolved through more detailed review or contact with the proposing
  organization.

 The three subpanels rejected 7 of the original 28 proposals as having review scores below the
 necessary thresholds , and forwarded the remaining 21 proposals to the SSEB for further
 consideration.

 NIST established the SSEB to evaluate all proposals forwarded by the subpanels.
                                                                                        The SSEB
 included a chairperson and seven MEP program personnel. The
                                                                     Source Selection Plan
 designated the MEP Associate Director for Regional Programs (Acting) as the SSEB
 chairperson , who was ~esponsible for appointing the remaining members.
                                                                         Appendix I , page 2
 of3 , illustrates the activities of the SSEB.

 In accordance with the Source Selection Plan the SSEB reevaluated and scored all proposals
 forwarded by the subpanels , using the review criteria stated in the MEP Program Rule.
                                                                                           After the
 review and scoring, the SSEB determined a threshold score, below which proposals were
 rejected , and above which proposals were selected for site visit interviews. At this point
                                                                                             , another
 3 proposals were rejected , leaving 18 for the third phase in the selection process-
                                                                                     finalist site
 visits.

In the finalist site visit phase , each remaining applicant was invited to travel to NIST to provide a
presentation and answer any additional questions posed by the SSEB. NIST telephoned each
applicant approximately two weeks before its tentative visit date. NIST staggered the phone
calls to permit each applicant approximately the same amount of time to prepare for the site visit.
Immediately after the phone calls , NIST mailed site visit instructions and a list of questions to
each applicant, and allowed the applicants to submit written responses to the questions before the
site visit.

NIST assigned individual SSEB members to act as facilitators for each site visit interview.
facilitators were also responsible for collecting the remaining SSEB members
                                                                                               The
                                                                                ' comments and
preparing a site visit summary report. NIST allotted each applicant
                                                                      2Yz hours for its presentation
and questioning. After the site visit , each applicant was allowed three business days to revise its
written submission , based on input or additional questions from the SSEB.

After receiving all revised written submissions , the SSEB computed a final score and ranking for
each applicant. The score was again based on the equally-weighted review criteria published in
Section 290. 6 of the MEPProgram Rule. The SSEB
                                                       recommended that all 18 of the finalist
proposals be selected for funding under the 1996 MEP center competition. The total first-
                                                                                           year
funding requested by the 18 recommended proposals was just under $19.
                                                                         7 million.
Based on our audit , we concluded that the MEP process for reviewing applications tesulted in
merit- based evaluations. However, while NIST followed the required review procedures for the
1996 MEP center competition , all proposal reviewers were members of the MEP program staff.

                                                               11-
                 , "




    S. Department of Commerce                                                Report No. DEN- IO959- 0001
  Office of Inspector General
                                                                                              March 1999


  To enhance the independence and objectivity of any future MEP center competitions , NIST
  should invite reviewers ITom outside NIST and the Department to participate in the review
  process.

 We note that MEP includes private experts on the panels that perform reviews of existing centers
 during their third and sixth years of operation. (See Section VI , page 13. ) NIST's use of
                                                                                             private
 experts ensures independence in the review process. While NIST did not violate departmental
 guidance by using only NIST employees on MEP proposal review panels , we believe that the use
 of knowledgeable reviewers from outside NIST and the Department would provide an
 independent perspective that would enhance the objectivity of any future MEP center
 competitions.

      MEP Selections Were Proper

 The fourth and final phase ofthe MEP center selection process is award determination. The
 MEP Program Director was the designated selecting official for the 1996 MEP center
 competition. The     Source Selection Plan   states that the selecting official is responsible for
 approving the SSEB' s recommendations. The selecting official concurred with the SSEB'
 recommendation to fund all 18 applicants that completed site visits. The selecting official'
 activities are illustrated in Appendix I , page 3 of3.

In summary, NIST conducted its 1996 MEP center competition in accordance with applicable
statutory, departmental , and NIST requirements. The reviewers correctly applied the review
criteria published in Part 290. 6 ofthe rule. Based on NIST's application of adequate solicitation
review , and selection procedures and practices for the 1996 MEP center competition
                                                                                     , we found
NIST's selections to be merit- based.

VI. Award Renewal         Procedures Are Adequate
 During fiscal year 1997 , NIST processed 55 award renewal actions , totaling about $79.
                                                                                            5 million.
 Federal statute , 15 US. , Section 278k(c)(5), established requirements for NIST to follow in
 assessing whether existing MEP centers should continue to receive federal funding. NIST
 implemented these requirements in the MEP Program Rule. The statute and the MEP Program
 Rule both require NIST to perform periodic reviews of MEP centers and to use the results of
 these reviews as the basis for continued federal funding. Part 290. 8(b), "Annual Reviews of
Centers " states Centers will be reviewed annually as part of the funding renewal process using
the criteria set out in (Part) 290. 8(d). The funding level at which a center is renewed is
contingent upon a positive program evaluation ... " Part 290. 8(c), " Third Year Review of
Centers " requires the Secretary of Commerce to form merit review panels to review and report
on the performance ofMEP centers during their third year under the program. The rule states
that centers must demonstrate that they are making progress toward self-sufficiency and receive a
third- year evaluation that is positive on all grounds in order to receive continued funding.
                                                                                               Part
290. 8(c) also specifies that third :-year program reviews are to be performed by panels composed
of federal officials and " ... private experts , none of whom shall be connected with the center.


                                                 12-
                                                       ,"


  u.s. Department of Commerce
                                                                           Report No. DEN- I0959- 0001
  Office of Inspector General
                                                                                           March   1999

  NIST' s periodic reviews ofMEP center performance have resulted in three centers being
  terminated due to unsatisfactory performance-one in 1994 and two in 1995. NIST selected new
  recipients in the respective geographic areas of the three terminated centers through its regular
  MEP center competition processes in 1994 , 1995 , and 1996.

 The MEP Program Rule also specifies , in Part 290.4 Terms and Schedule of Financial
 Assistance " maximum federal cost-sharing ratios for renewal actions. MEP centers may receive
 federal reimbursement for up to 50 percent oftotal allowable project costs during each of the first
 three program years. The maximum federal share is 40 percent for the fourth year
                                                                                      , and
 33 percent for years five and six. Under the original authorizing legislation
                                                                               , federal funding of
 individual MEP centers was limited to six years. Subsequent legislation allowed
                                                                                     MEP to .
 continue funding centers beyond the original six-year limit , at a continued federal participation
 level of33 percent.

 NIST's authority to extend centers beyond the six- year limit has been granted on a year-
                                                                                           to- year
 basis in the Department' s annual appropriation legislation. The authority also specified that
 continued funding beyond the sixth year is subject to a review of the respective center
 performance and to a finding by the Secretary of Commerce that providing continued federal
 funding to the center is in the best interest of the MEP program. To receive continued funding,
 each center must also have submitted a reapplication, which must successfully pass merit review.

NIST realized that it had to develop supplemental review procedures , beyond those included in
the Program Rule , to fulfill the evaluation requirement of the extended MEP funding authority.
Although NIST's supplemental procedures have been approved by OMB
                                                                          , they have not been
incorporated into the MEP Program Rule because of the year- to- year status of the extended
authority. NIST would like permanent authority to continue funding centers for more than six
years. IfNIST does receive such permanent authority, it will formally incorporate review
procedures for years seven and beyond into the Program Rule.

NIST's supplemental review procedures for years seven and beyond include a reapplication for a
two-year extension after the sixth year. The reapplication is reviewed by an outside panel
similar to the third- year panel review required under Part 290. 8(c) of the Program Rule.
receives authority to continue extending center funding, it plans to require reapplications
                                                                                            IfNIST
including outside panel reviews , every two years.

We believe that NIST's procedures for reviewing existing MEP centers and renewing awards
provide a sound basis for making funding decisions. The termination and recompetition
center awards indicates that the review procedures are effective in identifying poorly-
                                                                                            ofthree
                                                                                         performing
centers. Finally, we note that NIST , as required by statute , used outside experts as a means to
ensure the independence and objectivity ofMEP center evaluations.

VII.      Award Renewals Were Improperly Categorized

NIST reported an incorrect CFDA category code number to OEAM for certain MEP award
actions in fiscal year 1997. As a result of incorrect reporting, data maintained by OEAM

                                                13-
  u.s. Department of Commerce
                                                                         Report No. DEN- IO959- 0001
  Office of Inspector General                                                            March 1999


  inaccurately portrays the number and dollar value ofMEP award actions. OMB Circular A-
  requires agencies to track data on approved federal domestic assistance programs. Obviously,
  these data should accurately summarize actual activity.

 NIST processed 55 MEP cooperative agreement actions during fiscal year 1997 , totaling almost
 $79. 5 million in federal funding. These figures are based on data provided by the program
 office. However, according to OEAM , there were only 43 awards , for a total of about
 $59. 9 million , under the MEP CFDA code -- #11.611. The result is an underreporting by OEAM
 of 12 awards and $19. 6 million in 1997 MEP funding.

 According,to the NIST Grants Office , the remaining MEP awards were categorized under
 another CFDA code -- #11.609 -- which NIST uses as a catch-all category for financial
 assistance awards that do not fit under any of its four other CFDA categories. The Grants Office
 stated that the awards in question involve money transferred to NIST by the Department of
 Defense s Technology Reinvestment Program. Without providing a reason for this decision
                                                                                            , the
 Grants Office stated that renewals ofMEP awards , using funds from the Technology
 Reinvestment Program , were categorized under CFDA #11.609.

 The Department' s Office of General Counsel also noticed that NIST was reporting MEP award
 actions under CFDA #11. 609. A representative from the Office of General Counsel advised
 NIST to report all future MEP award actions under CFDA #11. 611. We concur with Counsel'
 advice to NIST.

VIII.     Recommendations

We recommend that the NIST Director ensure that:

     Any future MEP center solicitation notices meet the minimum requirements
     established by departmental guidance.

     MEP invites participants from outside NIST and the Department to serve as proposal
     reviewers in order to enhance the objectivity of the selection process for any future
     MEP center competition.

     Award renewals are correctly reported under the appropriate CFDA number.

NIST' s Response to the Draft Audit Report

NIST agreed with the findings and recommendations in our report. NIST will ensure that any
future MEP center solicitations comply with the minimum requirements , will involve outside
proposals reviewers , and will report the proper CFDA category number on all future MEP award
actions. In its response , NIST also provided additional information in an effort to explain the
noted deficiencies. NIST's response is included in its entirety as Appendix II.




                                               14-
u.s. Department of Commerce
                                                                                                 Report No. iJEN- 1O959- 0001
Office of Inspector General
                                                                                                                   March 1999


                                                                                                                Appendix I
                                                                                                                Page 1 of 4
                            NIST PROCEDURES FOR SOLICITATION, REVIEW
                                                      WARDS
                                               AND SELECTION OF




                                                                             Each subpanel meets to
                                                                             discuss proposal scoring,
                                                                             issues, and questions




                                                                             Based on discussions
                                                                             evaluators may adjust
                                                                             scores and comments
         Proposal assigned to
         Subpanel for review

         Subpanel members are ME
         program staff appointed by
         Chair of SSEB
                                                                              Individual subpanel
                                                                              evaluator scores combined
                                                                              into single database




                                                                              Mer aR proposals are
                                                                              evaluated, each subpanel
                                                                              meets to discuss rank
                                                                              order and threshold for
                                                                              "forward" or "reject"
                                                                              decisions



       Subpanel evaluates proposal                                             Subpanels meet join
       using electronic scoring                                                to present evaluation
       database to record comments                                             results and disaJss
       and scores.                                                             decisions

       Evaluation Criteria:


      - Identification of target firms in
         the proposed region
      - Technology resources
      - Technology delivery
         mechanisms
      - Management and financial
         plan




 Solicitation Process
                                            Review Process
                                                                  Selection Process
                            -,. ,.."..
                        ..,.. ",.- ___..             .'
u.s. Department of Commerce
                                                                              Report No. DEN- I0959- 0001
Office of Inspector General
                                                                                                March 1999


                                                                                             Appendix I
                                                                                             Page 2 of 4




         Combined subpanel review
         database and SSEB
         electronic scoring database       After al proposals are evaluated
         distributed to SSEB               SSEa meets to discuss rank order
                                           and threshold for .Site   VISit"
         SSEB members include:             "Reject" decision

         ~ Chair (MEP Associate
           Director for Regional
           Programs)
         - Seven MEP program
           personnel appointed by
           Chair)




        SSEB evaluates proposals
        using electronic scoring
        database to record
        comments and scores                ::=ra
                                                     Sl:r.
        SSEB meets to disaJss
        proposal scoring, issues or
        questions

        Based on disaJssions,
        evaluators may adjust
        scores and comments




       Individual SSEB evaluators
       scores combined into single
       database
                                  '--'-- ---,,--




u.s. Department of Commerce
                                                             Report No. DEN- JO959- 0001
Office of Inspector General
                                                                              March 1999


                                                                           Appendix I
                                                                           Page 3 of 4




                              SeledingOllicial



                              SeIecIiog 0fI!claI nMews
                              recanmelldaliolls ill ensure
                              program cohEorence "
                              consistency




                 ,t~


                                      Yes
                                                           -_.....,,-
u.s. Department of Commerce
                                                                               Report No. DEN- JO959- 0001
Office of Inspector General
                                                                                                March 1999


                                                                                             Appendix I
                                                                                             Page 4 of 4




                              Mer final COI1QJrrence by
                              Selecting Official
                               Rejection" letter sent to
                              proposer




                                                           No further action




                               FmaJ documentation
                               reviewed by Regional
                              Manager




                                 Debriefing
                                conducted by
                                Regional Manager
                  , ;'                                   -:.,.        ;;                                  , - ..




                                                                                                       Appendix II
                                                                                                       page 1 of 3

                                                                                   , UNITED STATESDEPARTMEntr OF COMMERCE
                                                                                     National Institute of Standards and Technology
                                                            ~ t..:::e::J,           Gaithersburg. Maryland 20899-
                                                                 .~~~s ~ ..


                    MAR       I 7   1999




MEMORANDUM FOR George E. Ross
               Assistant Inspector General for Auditing

From:
                                           DIrector
                                            ~vin Carr




                                           Manufacturing Extens
                                                                 f?                  ~h-v
                                                                              ~n Partnership Program
Subject:                                   Response to Draft Audit Report No. DEN- I 0959- XXXX


The Manufacturing Extension Partnership (MEP) has reviewed the above referenced draft audit
report titled Manufacturing Extension Partnership Program Awards Were Merit- Based-
CFDA No. 11. 611. " Below are the MEP responses to the three recommendations cited in the
report.

1)   Brief Statement of Recommendation and Findings:

       Anyjzlture ME? centeK                  solicitation notices            meet the minimum requirements established by
     departmental guidance.




     The audit report states that some required information was not included in the fiscal year
     1996 MEP center competition "Notice of Availability of Funds " published in the Federal
     Register , Volume 61 , Number 88 , dated May 6 , 1996. Specifically, as required by DAO
     203- , Section 4. 02b , and Financial Assistance Notice No. 17 , Section . , the Federal
     Register notice did not state the type of funding instrument planned (contract , grant , or
     cooperative agreement) and did not describe either the proposal review criteria or the
     selection procedures to be used.

     MEP Response

     At the time the Federal Register notice was being prepared f'()r this competition , there was
     increased scrutiny of such notices in an effort to reduce the number of Federal Government
     regulations- MEP was advised to minimize the amount of information included in the notice
     in order to avoid it being misconstrued as new or additional regulations- Thus , information
     on the funding instrument , criteria , and selection procedures , which had originally been
     included in the notice (similar to the FY 1995 competition notice - Federal Register , Volume
       , Number 108 , pages 29827- 29830 , dated June 6, 1995
                                                              L \Vas removed prior to final
     publication A description of the funding instrument. criteria, and selection procedures was




                                                                                                                    NIST
                                                                            Appendix " II
                                                                            page -   - of




      included in the " information packets " available from NIST as referenced in the May 6
                                                                                             , 1996
      Federal Register notice. In addition to specific requests , these packets were sent to
      organizations on a MEP-maintained mailing list of potential proposers.

     MEP concurs with this recommendation. Future Federal Register notices will comply with
     all requirements established by DAO 203- 26, Section 4. 02b , and Financial Assistance Notice
     No. 17, Section . 03.

2)   Brief Statement of Recommendation and Findings:

      ME? invites participants from outside NIST and the Department to serve as proposal
     reviewers in order to enhance the objectivity. of the selection process
                                                                             for any future MEP
     center competition.




     The audit report states that NIST did follow required review procedures resulting in merit-
     based evaluations of proposals for the 1996 center competition , however, all reviewers were
     members of the MEP program staff.

     MEP Response

     Other than the original1cen~ers , at the time of this competition all other MEP centers were
     less than three years old and the vast majority were still going through the early phases of
     start-up. As such , there was not an extensive pool of individuals that had the depth and
     breadth of knowledge and experience necessary to perform these reviews , other than the
     MEP program staff. An additional issue was that many of the external experts, that had the
     knowledge and experience , were affiliated with and/or assisting organizations that were
     submitting proposals to the competition. This created an obvious conflict of interest
     prohibiting them from serving on the review panels.

     Today, this is no longer the case. MEP and manufacturing extension centers are well known
     and there is a much larger number of external experts qualified to review and evaluate
     proposals. In part , this is due to the expanded number of third and sixth year external panel
     reviews of MEP centers that have been conducted using panel members outside of NIST and
     the Department. These panelists have received training from MEP and have gained
     invaluable experience from examining and evaluating centers in these reviews.

     MEP concurs with this recommendation. For all future center competitions , non- MEr
     experts will serve as proposal reviewers. In fact ove~ the past several years , non- MEr
     proposal reviewers have been used for evaluating proposals submitted to competitions for
     awards for both environmental and workforce projects.
                                                                       Appendix II
                                                                       page 3 of~~L



3)   Brief Statement of Recommendation and Findings:

      Award renewals are correctly reported under the appropriate CFDA number.

     The audit report states that NIST reported incorrect Catalog of Federal Domestic Assistance
     (CFDA) numbers on some of the center renewal awards.

     MEP Response

     The incorrect CFDA number occurred when centers, that had originally been selected and
     funded through the Department of Defense Technology Reinvestment Project (TRP), were
     reviewed and then renewed under MEP funding. Under the original TRP awards, the CFDA
     Number 11.609 was used. When these centers were renewed using MEP funds , the same
     CFDA number was used rather than the MEP number , 11.611.

     MEP concurs with this recommendation. As stated in the audit report , the Office of the
     Inspector General and Department of Commerce Office of General Counsel have discussed
     this issue with the NIST Grants Office , which is responsible for assigning the CFDA number.
     The correct number (11.611) will be used for all future center renewals.

     cc: R.   Kammer
